    DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General



      Targeting Oceangoing Cargo Containers 2007
                (Unclassified Summary)




OIG- 07-72                            August 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      August 28, 2007


                                             Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report represents an abbreviated version of our official use only report assessing the Automated
Targeting System used by Customs and Border Protection inspectors at ports to help select
intermodal cargo containers for inspection. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The information contained in this report has been developed to the best knowledge available to us,
and had been discussed in draft with appropriate management officials. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to
all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Introduction
Section 809(g) of the Coast Guard and Maritime Transportation Act of 2004 requires us to
evaluate and report annually on the effectiveness of the cargo inspection targeting system for
international intermodal cargo containers. The objective of this audit was to evaluate the U.S.
Customs and Border Protection’s (CBP) use of the Automated Targeting System (ATS) to
identify high-risk shipments. In addition, we reviewed whether recommendations contained in
our previous report on ATS, Audit of Targeting Oceangoing Cargo Containers, OIG-05-26,
dated July 2005, were implemented.


Background
CBP has a leading position within the Department of Homeland Security in preventing terrorists
and weapons of mass destruction from entering the country. As part of this responsibility, CBP
has a mission for protecting oceangoing cargo containers from being used as a means of bringing
weapons of mass destruction or other cargo linked to terrorism into the country, while not unduly
impeding the flow of legitimate trade and travel. CBP addresses the issue of a large volume and
limited resources for inspecting oceangoing containers by using the ATS to assist them in
determining which shipment of containers to place on hold for examination.

The ATS is a complex model of weighted rules that assist CBP Officers in determining which
shipments1 to place on hold for examination. CBP Officers use the ATS to review electronic
data submitted by ocean carriers, importers, and brokers on all arriving shipments by assigning a
risk score. These scores help CBP Officers make decisions to release or further evaluate the
specific cargo.

Our first ATS audit report, Audit of Targeting Oceangoing Cargo Containers, OIG-05-26, dated
July 2005, dealt with the ATS and its operating environment. We concluded that improvements
were needed in the data to which the ATS targeting rules are applied, and the use of examination
results to refine the ATS targeting rules. Also, physical controls over containers selected for
examination needed improvement. We made several recommendations for improvement. CBP
concurred with all recommendations.

Our second ATS audit report, Audit of Targeting Oceangoing Cargo Containers, OIG-07-09,
dated November 2006, focused on sources of information, performance measures, the impact of
ATS targeting scores on inspection activity, and CBP targeter training. We concluded that CBP
did not fully utilize other sources of intelligence information available. Also, national ATS
performance measures were still being developed for determining the effectiveness of the ATS.
Furthermore, we found that additional guidance for inspection of shipments with elevated ATS
scores was needed. Finally, we concluded that the ATS targeters were receiving or in the
process of receiving the required Sea Cargo Targeting Training. We made several
recommendations for improvement. CBP concurred with all recommendations and outlined
planned corrective actions.
1
 A shipment of commodities may be included in a single container or it may be so large that it is included in
multiple containers.


                                                                                                                Page 1
This audit was performed at various Department of Homeland Security locations along the east
coast; and covered transactions and procedures current as of June 2006. We gathered
information through structured interviews, document analysis, data collection instruments, and
observation of operations. Our audit work included follow-up on CBP corrective actions for
recommendations from the ATS audit report OIG-05-26, dated July 2005. We conducted our
audit between June 2006 and September 2006 under the authority of the Inspector General Act of
1978, as amended, and according to generally accepted government auditing standards.


Executive Summary
CBP is not consistently monitoring entry data for all shipments, resulting in some high-risk
containers being allowed to leave ports without mandatory examinations. Furthermore, flaws in
the Cargo Enforcement Reporting and Tracking System may result in improper container
releases, and CBP still has not automated its integration of examination findings into ATS.
Finally, some ports need to improve their controls over high-security bolt seals.

We recommend that the Commissioner of Customs and Border Protection develop a mechanism
that will ensure that shipments designated as high-risk are not released from CBP custody
without mandatory examination, strengthen procedures at the ports to prevent containers from
leaving ports without undergoing required inspections, develop systematic procedures to extract
oceangoing container examination results information and begin using it to refine existing
targeting rules and developing new rules. Also, we recommend that the Customs and Border
Protection require field offices and their respective ports of entry to implement all the
requirements of current policies, which deal with the accountability and control over high-
security bolt seals. CBP concurred and has taken action to implement the recommendations in
our report. Subsequent to the end of our fieldwork, CBP took actions to improve procedures for
ensuring that high-risk containers are examined.




                                                                                         Page 2
                   Appendix H
                   Report Distribution




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
